                                              OFFICE OF JOB CORPS


Office of Inspector General—Office of Audit




                                              COMPLAINT INVOLVING THE
                                              TULSA JOB CORPS CENTER




                                                              Date Issued:   March 13, 2008
                                                              Report Number: 26-08-003-01-370
                                                        U.S. Department of Labor
BRIEFLY…                                                Office of Inspector General
                                                        Office of Audit

Highlights of Report Number 26-08-003-01-370,           WHAT OIG FOUND
Complaint Involving the Tulsa Job Corps Center,         We concluded that 3 of the 4 allegations had merit.
to the National Director, Office of Job Corps, dated    Specifically, Center officials properly conducted
March 13, 2008.                                         and completed student surveys. However, Center
                                                        officials did not properly follow parental approval
                                                        requirements when enrolling minors. Six of the 7
WHY READ THE REPORT                                     minor students included in our review did not have
The report discusses the audit results from our         proper parental consent, which could prevent
assessment of a hotline complaint concerning            Center staff from fully assessing the student and
improprieties at the Tulsa Job Corps Center,            providing appropriate services, and could lead to
located in Tulsa, Oklahoma and operated by              the student not completing the program.
ResCare Corporation (ResCare). The hotline
complaint listed 4 specific allegations, and our        We also concluded that Center officials did not
audit of the hotline complaint reported that 3 of the   properly establish and maintain an EEO program
4 allegations had merit.                                for its students. Center officials did not publicize
                                                        the program and most students we interviewed
                                                        were not aware of the program. As a result, there
WHY OIG CONDUCTED THE AUDIT                             was not sufficient assurance that the Center was
The complainant alleged that Tulsa officials did not    adequately protecting students’ civil rights.
properly conduct and complete student surveys,
did not properly follow parental approval               Finally, we concluded that 2 of the 3 separated
requirements when enrolling minors, did not             students mentioned in the complaint were
establish and maintain an Equal Employment              improperly included in the Center’s Morning
Opportunity (EEO) program for students, and did         Reports and shown as part of the OBS. Including
not properly account for separated students.            students in OBS after the students should have
                                                        been separated artificially distorts the Center’s
Our audit objective was to determine if the             actual performance.
allegations had merit. Specifically, we answered
the following questions:                                WHAT OIG RECOMMENDED
                                                        The OIG recommended the National Director,
1. Did Tulsa officials properly conduct and             Office of Job Corps require the Center Director to:
   complete student surveys?                            establish procedures to verify compliance with
                                                        PRH and local requirements for obtaining and
2. Did Tulsa officials properly follow parental         maintaining supporting documentation regarding
   approval requirements when enrolling minors?         parental consent for minor students; take action to
                                                        provide training to the EEO Officer, establish a
3. Did Tulsa officials establish and maintain an        formal EEO training program for students, train all
   Equal Employment Opportunity (EEO) program           students, periodically monitor student awareness
   for its students as required by the Policy and       of the EEO program, and adequately publicize the
   Requirements Handbook (PRH)?                         EEO program to students; and verify the integrity
                                                        of the Center’s reported OBS by monitoring the
4. Were separated students improperly included          Center’s Morning Report and by periodically
   in the Center’s Morning Report and shown as          visiting the Center to confirm reported OBS.
   part of the Center’s On-Board Strength (OBS)?
                                                        HOW AUDITEE RESPONDED
                                                        The National Director, Office of Job Corps,
READ THE FULL REPORT                                    concurred with all findings and the 3
To view the report, including the scope,                recommendations made in the report.
methodology, and full agency response, go to:
http://www.oig.dol.gov/public/reports/oa/2008/26-
08-003-01-370
Complaint Involving the Tulsa Job Corps Center




Table of Contents
                                                                                                                      PAGE

EXECUTIVE SUMMARY ................................................................................................ 1

ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 5

         Finding 1.         Center officials did properly conduct and complete student
                            surveys. ......................................................................................... 6

         Finding 2.         Center officials did not properly follow parental approval
                            requirements when enrolling minors. ......................................... 7

         Finding 3.         Center officials did not establish and maintain an Equal
                            Employment Opportunity (EEO) program for its students as
                            required by the PRH...................................................................... 8

         Finding 4.         Separated students were improperly included in the Center's
                            Morning Report and shown as part of the Center's On-Board
                            Strength. ...................................................................................... 10

APPENDICES ............................................................................................................... 13

         APPENDIX A Background................................................................................ 15

         APPENDIX B Objectives, Scope, Methodology, and Criteria........................ 17

         APPENDIX C Acronyms and Abbreviations ................................................... 19

         APPENDIX D Auditees Response ................................................................... 21




                                                        U.S. Department of Labor—Office of Inspector General
                                                                            Report Number: 26-08-003-01-370
                                                Complaint Involving the Tulsa Job Corps Center




Executive Summary
The Office of Inspector General (OIG) received a hotline complaint concerning
improprieties at the Tulsa Job Corps Center (Center), which is operated by ResCare
Corporation (ResCare) and is located in Tulsa, Oklahoma. In response to this
complaint, we initiated a limited review of four specific allegations. Specifically, the
complaint alleged that ResCare did not properly conduct student surveys; did not follow
parental approval requirements; did not establish and maintain an EEO program for its
students; and did not follow guidance regarding student accountability.

Our objective was to determine if the allegations had merit. Specifically, we answered
the following four questions:

   1. Did Center officials properly conduct and complete student surveys?

   2. Did Center officials properly follow parental approval requirements when enrolling
      minors?

   3. Did Center officials establish and maintain an Equal Employment Opportunity
      (EEO) program for its students as required by the Policy Requirements
      Handbook (PRH)?

   4. Were separated students improperly included in the Center's Morning Report and
      shown as part of the Center's On-Board Strength (OBS)?

To accomplish our objective, we assessed the Center’s compliance with the PRH
governing student surveys, parental consent for minors, EEO requirements, and student
accountability.

Results

We concluded that 3 of the 4 allegations shown above had merit. Specifically, from our
limited review, we found that:

   1. Center officials did properly conduct and complete student surveys in accordance
      with the PRH. Therefore, this allegation did not have merit.

   2. Center officials did not properly follow parental approval requirements when
      enrolling minors. Specifically, Center officials did not obtain or maintain all
      supporting documentation for 6 of 7 students as required by the PRH regarding
      parental approval when minor students were enrolled. Therefore, this allegation
      had merit.



U.S. Department of Labor—Office of Inspector General                                        1
Report Number: 26-07-002-01-370
Complaint Involving the Tulsa Job Corps Center


    3. Center officials did not establish and maintain an EEO program for its students
       as required by the PRH. Specifically, Center officials did not adequately
       publicize the EEO program as required by the PRH. Therefore, this allegation
       had merit.

    4. Separated students were improperly included in the Center’s Morning Report and
       those students were shown as part of the Center’s OBS. Of the 3 students
       identified in the complaint, 2 were improperly included in Center’s OBS beyond
       the dates that the students should have been terminated (in accordance with the
       PRH). Therefore, this allegation had merit.

Recommendations

We recommend that the National Director, Office of Job Corps, require the Dallas
Regional Job Corps Administrator to:

    1. Direct the Center Director to establish procedures that verify the Tulsa Job Corps
       Center’s compliance with both the PRH and its own local requirement for
       maintaining supporting documentation showing that parental or legal guardian
       signatures on parental consent forms were valid at the time of enrollment for all
       minors, including enrollees from the Thunderbird Youth Academy, and
       periodically verify that parental consent for students enrolled as minors was
       appropriately obtained and documented in student files.

    2. Direct the Center Director to: provide the EEO Officer with sufficient training on
       the program; establish a formal EEO training program for students and require
       that training be provided to all students; periodically monitor student awareness
       of the program; adequately publicize the program by placing posters including
       the name and phone number of the EEO Officer throughout the Center; and list
       the EEO program and the name and phone number of the EEO Officer in the
       Center’s telephone directory as a reference for all students.

    3. Determine the integrity of Tulsa’s reported On-Board Strength by monitoring the
       Center’s Morning Report and by periodically visiting the Center to confirm
       reported data related to On-Board Strength.

Agency Response

The National Director, Office of Job Corps, concurred with the audit’s findings and all 3
recommendations provided for improvement. The Agency’s complete response to all 3
audit recommendations can be found in Appendix D. The Director stated the Dallas
Regional Director (Administrator) would provide monitoring and oversight for using
parental consent forms, had already confirmed the implementation of the EEO program
and the training of all students at the Center, and would use desktop monitoring, onsite
monitoring, and center assessments to oversee the Center’s On-Board Strength.


2                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 26-07-002-01-370
                                                Complaint Involving the Tulsa Job Corps Center


OIG Conclusion

The OIG agrees that the corrective actions taken and planned by Job Corps
management are appropriate for all 3 audit recommendations. Based on the actions
taken, we consider recommendation 2 resolved and closed. Recommendations 1 and 3
are resolved and open. To close these recommendations, the Office of Job Corps
needs to provide documentation showing their planned corrective actions have been
completed.




U.S. Department of Labor—Office of Inspector General                                        3
Report Number: 26-07-002-01-370
Complaint Involving the Tulsa Job Corps Center




                       THIS PAGE INTENTIONALLY LEFT BLANK




4                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 26-07-002-01-370
                                                Complaint Involving the Tulsa Job Corps Center


U.S. Department of Labor                       Office of Inspector General
                                               Washington, DC 20210




March 13, 2008


                         Assistant Inspector General’s Report


Esther R. Johnson
National Director
Office of Job Corps
U. S. Department of Labor
200 Constitution Avenue, N.W.
Washington, DC 20210

In response to a hotline complaint, the Office of Inspector General (OIG) conducted a
limited review of four specific allegations at the Tulsa Job Corps Center (Center), which
is located in Tulsa, Oklahoma. The complaint alleged the Center’s operator, ResCare
Corporation (ResCare), did not:

   1. Properly conduct student surveys,

   2. Follow parental approval requirements,

   3. Establish and maintain an EEO program for its students, and

   4. Follow guidance regarding student accountability.

Our objective was to determine if the allegations had merit and our review was limited to
Program Year (PY) 2005 and a portion of PY 2006 (July 1, 2005 through January 31,
2007). To accomplish our objective, we assessed the Center’s compliance with the
Policy and Requirements Handbook (PRH) governing student surveys, parental consent
for minors, EEO requirements, and student accountability. Accordingly, we asked the
following four questions:

   1. Did Center officials properly conduct and complete student surveys?

   2. Did Center officials properly follow parental approval requirements when enrolling
      minors?

   3. Did Center officials establish and maintain an Equal Employment Opportunity
      (EEO) program for its students as required by the PRH?

   4. Were separated students improperly included in the Center's Morning Report and
      shown as part of the Center's On-Board Strength?

U.S. Department of Labor—Office of Inspector General                                        5
Report Number: 26-07-002-01-370
Complaint Involving the Tulsa Job Corps Center


The table below presents the allegations we considered and our conclusions whether
each individual allegation had merit.

                    ALLEGATION                                                    CONCLUSION
 Student surveys were not conducted and completed in
 accordance with the PRH                                                        Did not have Merit

 The Center did not follow parental approval
                                                                                      Had Merit
 requirements when enrolling minors

 The Center did not establish and maintain an EEO
 program for its students as required by the PRH                                      Had Merit

 Separated students were improperly included in the
 Center’s Morning Report and shown as part of its On-
 Board Strength                                                                       Had Merit



We conducted the audit in accordance with Government Auditing Standards for
performance audits issued by the Comptroller General of the United States. We have
provided a Background in Appendix A that further discusses the Center’s and Job
Corps’ performance measures. Our audit objective, scope, methodology, and criteria
are shown in Appendix B.

Objective 1 – Did Center officials properly conduct and complete student
surveys?

Finding 1. Center officials did properly conduct and complete student surveys.

Based on our interviews with students at the Center, we concluded that Center officials
did properly conduct and complete student surveys in accordance with the PRH.
According to the PRH, the student survey is required to be administered quarterly to all
students, including new arrivals, enrolled in Job Corps. The survey questions elicit
students’ perceptions on a broad range of services and center activities, and the
questions focus on students’ experiences during the last month. We separately
interviewed 10 students that were previously assigned proctor duties 1 for the period
September 2005 through December 2006. Each of the 10 student proctors stated that
they were given instructions by the Career Standards Officer (CSO) on how to
administer the surveys, but were not told what to put on the surveys. Moreover, each
proctor stated that only students were present when surveys were administered. We
concluded Proctors understood their roles and responsibilities regarding student
surveys and concluded the allegation did not have merit.
1
  Job Corps student surveys were administered by students that volunteered to accept proctor duties. Proctor duties
included instructing other students about the purpose of the survey, overseeing the completion of the survey,
collecting the results, and sealing the information that was then sent to the Job Corps Data Center.

6                                                   U.S. Department of Labor—Office of Inspector General
                                                                        Report Number: 26-07-002-01-370
                                                Complaint Involving the Tulsa Job Corps Center


Objective 2 – Did Center officials properly follow parental approval requirements
when enrolling minors?

Finding 2. Center officials did not properly follow parental approval requirements
when enrolling minors.

Center officials did not properly follow parental approval requirements when enrolling
minors. Specifically, our review of documentation for seven students who were minors
at the time of enrollment showed that Center officials did not obtain or maintain
adequate proof of parental consent as required by Chapter 1 (Exhibit 1-1) of the PRH
for six of the seven minor students. The PRH requires that applicants who are minors
must have parental or legal guardian consent in order to enroll in a Job Corps center.

Of the four students mentioned in the allegation, two students were not minors, and
therefore did not need consent. Regarding the other two students, both underage
students did not have proper parental consent. For one student, Tulsa officials could
not provide documentation of parental consent. For the other student, the parental
consent form was not witnessed by a Center representative as required by the PRH.
Therefore, the allegation had merit.

Based on the results of our initial review, we conducted tests of five additional minor
students who enrolled in the Center from the Thunderbird Youth Academy during the
period December 30, 2006, through January 31, 2007, and found similar results. The
five additional students had signed consent forms. However, only one of the signed
forms were either notarized or signed by a Center Representative. Thus there was not
sufficient assurance the signatures were valid.

Enrollment of minors without parental consent could result in a lack of pertinent
information regarding the student that could prevent Center staff from fully assessing
the student and providing appropriate services, which could lead to the student not
completing the program. In addition, the Center did not follow its own local form to
ensure the accuracy of parental and guardian signatures. The Center established a
requirement that parental or guardian signatures be notarized on a form developed by
the Center. While we agree that this additional Center-developed control was helpful in
assuring the validity of parental or guardian signatures, Center officials did not always
execute this control.

Recommendation

       1. We recommend that the National Director, Office of Job Corps, require the
          Dallas Regional Job Corps Administrator to:

          •   Direct the Center Director to establish procedures that require the Tulsa
              Job Corps Center’s compliance with both the PRH and its own local
              requirement for maintaining supporting documentation showing that
              parental or legal guardian signatures on parental consent forms were valid

U.S. Department of Labor—Office of Inspector General                                        7
Report Number: 26-07-002-01-370
Complaint Involving the Tulsa Job Corps Center


              at the time of enrollment for all minors, including enrollees from the
              Thunderbird Youth Academy.

          •   Periodically verify that parental consent for students enrolled as minors
              was appropriately obtained and documented in student files.

Agency Response

The National Director, Office of Job Corps provided a copy of the parental consent form
used by the Tulsa Job Corps Center’s staff that documents parental or legal guardian
consent. The National Director stated that the parental consent form was put into place
in the Fall of 2006. Lastly, the National Director stated that the Dallas Regional Director
(Administrator) will provide monitoring and oversight of the use of this document through
monitoring trips and center assessments.

OIG Conclusion

The OIG agrees that these planned corrective actions are appropriate and we consider
audit recommendation 1 resolved and open. To close this recommendation, the Office
of Job Corps needs to provide documentation showing their planned corrective actions
have been completed.

Objective 3 – Did Center officials establish and maintain an Equal Employment
Opportunity (EEO) program for its students as required by the PRH?

Finding 3. Center officials did not establish and maintain an Equal Employment
Opportunity (EEO) program for its students as required by the PRH.

Center officials did not establish and maintain an EEO program for its students as
required by the PRH. Specifically, Center officials did not adequately publicize the EEO
program, ensure that students were knowledgeable about or received adequate training
on the program, or ensure that students knew how to file a complaint or with whom to
file the complaint. The PRH states that Job Corps centers must develop and implement
systems to respond to complaints of discriminatory treatment of students. The PRH
also includes a requirement that the Center provide training and publicity about the
program. We found that the Center’s actions regarding the EEO program were not
adequate to ensure student awareness. Therefore, the allegation had merit.

We interviewed 11 students in order to determine their awareness of the program.
These students initially enrolled at the Center during the period February 2006 through
November 2006. Of the 11 students we interviewed, 10 students were not
knowledgeable or aware of the EEO program. The one student who was
knowledgeable about the EEO Program stated that he knew how to report an EEO
complaint but did not know who at the Center would accept the complaint. The student
incorrectly thought the Center Standards Officer (CSO) was the person with whom to
file an EEO complaint.

8                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 26-07-002-01-370
                                                Complaint Involving the Tulsa Job Corps Center


We also found that EEO training for students was limited. According to the EEO Officer
for the students, incoming students do not receive formal EEO orientation. Instead, the
EEO Officer provides incoming students with a brief EEO discussion when they tour the
recreational center. We also found that the EEO Officer did not keep a log or list of
students that received the brief EEO discussion. In fact, the EEO Officer stated that she
had not received any EEO training when she was appointed EEO Officer. The PRH
requires that designated EEO Officers be well trained.

Further, we found that the EEO program was not adequately publicized. Through our
observations at the Center, we could not find any posted EEO information anywhere at
the Center regarding the EEO Officer or the EEO program. Further, the Center phone
listing did not include the title, position, or name of the EEO Officer.

Without adequate information about and training on the EEO program, there was
not sufficient assurance that the Center was adequately protecting students’ civil rights
and promoting an environment free from discrimination and sexual harassment.

Recommendation

       2. We recommend that the National Director, Office of Job Corps, require the
          Dallas Regional Job Corps Administrator to verify the Tulsa Job Corps
          Center’s compliance with the PRH requirements governing the EEO program.
          Specifically the Center Director should:

              •   Provide the EEO Officer with sufficient training on the program;
              •   Establish a formal EEO training program for students and require that
                  training be provided to all students;
              •   Periodically monitor student awareness of the program;
              •   Adequately publicize the program by placing posters including the
                  name and phone number of the EEO Officer throughout the Center;
                  and
              •   List the EEO program and the name and phone number of the EEO
                  Officer in the Center’s telephone directory as a reference for all
                  students.

Agency Response

The Dallas Regional Director confirmed through a center assessment, completed from
June 4, 2007 through June 8, 2007, that the Tulsa Job Corps Center had implemented
an EEO presentation for new enrollees to be delivered during the student’s first week on
center. At the completion of the training, students are suppose to sign the PRH EEO
acknowledgement form (a copy of the form was included in Job Corps’ response, see
Appendix D). Additionally, the Center formed an EEO committee consisting of 2
students and 3 Center staff. To publicize the members of the EEO committee, pictures
of the students and staff representatives were placed around the Center. In addition,
on-line training was provided to the EEO committee on April 17, 2007. Lastly, the EEO

U.S. Department of Labor—Office of Inspector General                                        9
Report Number: 26-07-002-01-370
Complaint Involving the Tulsa Job Corps Center


Officer retrained all students who were enrolled at the time of the audit and obtained
student signatures on the PRH EEO form.

OIG Conclusion

The OIG agrees that the corrective actions taken are appropriate, and we consider audit
recommendation 2 resolved and closed.

Objective 4 – Were separated students improperly included in the Center's
Morning Report and shown as part of the Center's On-Board Strength?

Finding 4. Separated students were improperly included in the Center's Morning
Report and shown as part of the Center's On-Board Strength.

Separated students were improperly included in the Center’s Morning Report for up to
102 days after the student left the Center, and those students were also shown as part
of the Center’s On-Board Strength (OBS). Therefore, the allegation has merit.

We reviewed available documentation for the 3 students that were identified in the
complaint and determined that 2 of the 3 students were improperly included in Center’s
OBS beyond the dates that the students should have been terminated. Below is the
information on the two students:

     •   The first student was included in OBS for 29 days after the student should have
         been separated. The student was caught inhaling glue in class on March 9,
         2006. The Instructor completed an incident report and turned the matter over to
         Center management. According to the Center’s Standard Operating Procedure
         552.1, (Disciplinary Separation, page 2, paragraph C 10), the student committed
         an offense that required a Center Review Board (CRB) within 48 hours of the
         offense. Center officials had until March 11, 2006, to convene the board. Center
         officials did not maintain any record of the CRB results. However, Center
         officials stated that the Board met on March 12, 2006, and recommended
         separation. However, the student was not separated until April 10, 2006, which
         was 29 days after the student should have been separated.

     •   The second student was included in OBS for 102 days after the student should
         have been separated. The PRH (Exhibit 6-1, Duty/Pay/Leave Status, page 4)
         states that a student who is absent without official leave (AWOL) for 12 days in a
         6-month period shall be terminated. The student had 12 AWOL days between
         February 2, 2006 and March 5, 2006. However, the student was included in
         OBS until June 15, 2006, which was 102 days after the student should have
         been separated.

Including students in OBS after the students should have been separated artificially
distorts the Center’s actual performance. OBS is one of the measures used by Job
Corps to monitor a center’s performance. OBS measurement focuses on the center’s

10                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 26-07-002-01-370
                                                Complaint Involving the Tulsa Job Corps Center


ability to operate at full student capacity. Centers operating at less than full-student
capacity may be required to refund Job Corps a portion of reimbursable expenses.

Recommendation

       3. We recommend that the National Director, Office of Job Corps, require the
          Dallas Regional Job Corps Administrator to determine the integrity of Tulsa’s
          reported On-Board Strength by monitoring the Center Morning Report and by
          periodically visiting the Center to confirm reported data related to On-Board
          Strength.

Agency Response

The Regional Director of Dallas has been instructed to closely monitor OBS through
desktop monitoring, onsite monitoring visits, and center assessments.

OIG Conclusion

The OIG agrees that these planned corrective actions are appropriate, and we consider
audit recommendation 3 resolved and open. To close this recommendation, the Office
of Job Corps needs to provide documentation showing their planned corrective actions
have been completed.




Elliot P. Lewis




U.S. Department of Labor—Office of Inspector General                                       11
Report Number: 26-07-002-01-370
Complaint Involving the Tulsa Job Corps Center




                       THIS PAGE INTENTIONALLY LEFT BLANK




12                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 26-07-002-01-370
                                                Complaint Involving the Tulsa Job Corps Center




Appendices




U.S. Department of Labor—Office of Inspector General                                       13
Report Number: 26-07-002-01-370
Complaint Involving the Tulsa Job Corps Center




                       THIS PAGE INTENTIONALLY LEFT BLANK




14                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 26-07-002-01-370
                                                Complaint Involving the Tulsa Job Corps Center


                                                                               APPENDIX A
BACKGROUND

Job Corps is a national residential training and employment program administered
within the Department of Labor by the Office of Job Corps. The program addresses the
multiple barriers to employment faced by at-risk youth throughout the United States.
The Job Corps program is currently authorized by Title I, Subtitle C, of the Workforce
Investment Act of 1998.

As a national, primarily residential training program, Job Corps' mission is to attract
eligible young adults, teach them the skills they need to become employable and
independent, and place them in meaningful jobs or further education.

Education, training, and support services are provided to students at Job Corps center
campuses located throughout the United States and Puerto Rico. Job Corps centers
are operated for the U.S. Department of Labor by private companies through
competitive contracting processes, and by other Federal Agencies through an inter-
agency agreement.

The WIA legislation authorizing Job Corps requires the Secretary of Labor to provide a
level of review of contractors and service providers over a 3-year period. The CFR
states all Job Corps centers must be reviewed over the 3-year period. The OIG has
taken the lead in providing audit coverage of the operators and service providers for the
Secretary.

The Tulsa Job Corps Center is located approximately five miles from downtown Tulsa,
Oklahoma. The center is approximately 98 miles east of the State Capital, which is
located in Oklahoma City, Oklahoma. The Tulsa Job Corps Center has on-board
student strength of 300 students and an annual operating budget of approximately $7
million.

In 1984, the current facility was purchased from Tulsa University. There are four
buildings on 13 acres of land with ample recreation space. This includes a recreation
center, multipurpose field, and a volleyball court.




U.S. Department of Labor—Office of Inspector General                                       15
Report Number: 26-C02-601-01-370
Complaint Involving the Tulsa Job Corps Center




                       THIS PAGE INTENTIONALLY LEFT BLANK




16                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 26-07-002-01-370
                                                Complaint Involving the Tulsa Job Corps Center


                                                                               APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA

Objectives

Our audit objectives were to determine the validity of the 4 allegations contained in the
hotline complaint regarding the Tulsa Job Corps Center. Our specific objectives were to
answer the following 4 questions:

   1. Did Center officials properly conduct and complete student surveys?

   2. Did Center officials properly follow parental approval requirements when enrolling
      minors?

   3. Did Center officials establish and maintain an Equal Employment Opportunity
      (EEO) program for its students as required by the PRH?

   4. Were separated students improperly included in the Center's Morning Report and
      shown as part of the Center's OBS?

Scope

Our audit comprised a limited review of the four allegations. We limited our audit
coverage to those areas specifically addressed in the original complaint and restricted
our testing to audit procedures necessary to fulfill the audit’s objective. For the
allegation involving parental approval requirements, four names were specifically
addressed in the complaint but only two were minors. As a result, five additional names
were added for review. Also, the complaint listed three separated students improperly
included in the Center’s Morning Report, and we limited our testing to only those three
students.

We examined data covering the period July 1, 2005, through January 31, 2007. Field
work was performed in February 2007 at Tulsa Job Corps Center.

To accomplish the audit, we reviewed the controls and PRH requirements associated
with student surveys, obtaining parental consent when enrolling a minor, establishing an
EEO Program for students, and reporting the Center’s OBS. However, our work was
limited to the original complaint; and as a result, we did not design any specific work
necessary to render an opinion about the Center’s internal controls and this report does
not render any such opinion.

Methodology

To determine whether each allegation had or lacked merit, we gained an understanding
of the controls, processes, and standard operating procedures (SOP) used to manage
the Tulsa Center’s operations. In addition, we interviewed key staff, interviewed

U.S. Department of Labor—Office of Inspector General                                       17
Report Number: 26-C02-601-01-370
Complaint Involving the Tulsa Job Corps Center


students, and reviewed student records. Specifically, we separately interviewed 10
students who administered Student Surveys to compare how they had fulfilled their
proctor duties to those duties called for by the PRH; reviewed the PRH requirements
and the local form governing parental consent, and examined student folders to validate
the PRH and local requirement was followed; compared EEO practices at the Center to
actions called for by the PRH; interviewed 11 students to find out how much they
understood about the EEO program; and reviewed the attendance history and
disciplinary actions for 3 students to determine whether they were shown as enrolled at
the Center after they were no longer active participants at the Center.

The 10 students who administered the Student Surveys and 11 students who were
interviewed about the EEO program were all selected judgmentally. We visited the
Education and Vocation classes, and with the permission of Center management,
selected one student per class visited to interview.

We conducted this performance audit in accordance with generally accepted
government auditing standards for performance audits. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Criteria

We used the following criteria to perform this audit:

Job Corps Policy and Requirements Handbook

Tulsa Job Corps Center Standard Operating Procedure 552.1




18                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 26-07-002-01-370
                                                Complaint Involving the Tulsa Job Corps Center


                                                                               APPENDIX C
ACRONYMS AND ABBREVIATIONS


AWOL          Absent Without Official Leave

Center        Tulsa Job Corps Center

CRB           Center Review Board

CSO           Career Standards Officer

EEO           Equal Employment Opportunity

OBS           On-Board Strength

OIG           Office of Inspector General

PRH           Policy and Requirements Handbook

PY            Program Year

ResCare       ResCare Corporation




U.S. Department of Labor—Office of Inspector General                                       19
Report Number: 26-C02-601-01-370
Complaint Involving the Tulsa Job Corps Center




                       THIS PAGE INTENTIONALLY LEFT BLANK




20                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 26-07-002-01-370
                                                Complaint Involving the Tulsa Job Corps Center


                                                                               APPENDIX D
AUDITEES RESPONSE




U.S. Department of Labor—Office of Inspector General                                       21
Report Number: 26-C02-601-01-370
Complaint Involving the Tulsa Job Corps Center




22                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 26-07-002-01-370
                                                Complaint Involving the Tulsa Job Corps Center




U.S. Department of Labor—Office of Inspector General                                       23
Report Number: 26-C02-601-01-370
Complaint Involving the Tulsa Job Corps Center




24                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 26-07-002-01-370
